                                                                  Issue Date
                                                                           March 21, 2012
                                                                   
                                                                  Audit Report Number
                                                                           2012-BO-1003




TO:        Robert P. Cwieka, Acting Director, Public Housing, 1APH


FROM:      John A. Dvorak, Regional Inspector General for Audit, Boston Region, 1AGA

SUBJECT: The Medford Housing Authority, Medford, MA, Needs To Improve Rent
         Reasonableness Determinations, Procurement, and Enforcement of Housing
         Quality Standards

                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Housing Choice Voucher and Federal public housing programs at
             the Medford Housing Authority due to a complaint received by the U.S.
             Department of Housing and Urban Development (HUD). Our overall audit
             objective was to determine whether the Authority had acceptable management
             practices to efficiently and effectively administer its housing programs while
             providing decent, safe, and sanitary housing in compliance HUD requirements
             and its annual contributions contract.


 What We Found


             The Authority did not always administer its Housing Choice Voucher and public
             housing programs in accordance with HUD regulations and its annual
             contributions contracts. It failed to conduct a proper rent reasonableness study to
             ensure that rents paid for assisted units were reasonable in relation to rents
             charged for comparable unassisted units. As a result, $7.8 million in housing
             assistance paid during the period July 2010 to September 2011 was not properly
             supported.
         The Authority also did not follow required procurement practices and procedures.
         The deficiencies identified included not performing cost estimates before
         soliciting bids, selecting contractors or architects without proper or adequate
         competition, not following HUD procedures for interagency agreements, not
         justifying noncompetitive awards, and paying for services or work performed
         without a contract. In addition, the Authority failed to maintain a complete
         contract register. As a result, it could not assure HUD that its procurement
         process was fair and equitable and it obtained the most favorable prices for more
         than $1.3 million charged to Federal programs.

         In addition, the Authority did not enforce HUD’s housing quality standards
         including ensuring that reinspections of its Housing Choice Voucher program
         units were performed in a timely manner or units were abated, when required.
         The Authority paid landlords $36,774 in housing assistance for 31 units reviewed
         that did not meet HUD’s housing quality standards.

         Also, a lack of controls over the use of credit cards issued in the name of the
         Authority to five of the Authority’s employees and a concern regarding the
         excessive subsistence allowance for overnight travel were addressed in a separate
         letter to the Board of Commissioners.


What We Recommend


         We recommend that the Director of Public Housing require the Authority to
         conduct proper rent reasonableness determinations, using all nine of the
         evaluation factors required by HUD and provide supporting documentation to
         show that rents were reasonable. We also recommend that the Director require
         the Authority to conduct an independent cost analysis for each of the
         procurements making up the more than $1.3 million charged to Federal programs
         to ensure that they were reasonable and supported. For any amounts that cannot
         be supported, HUD should require the Authority to reimburse the HUD programs
         from non-Federal funds. Additionally, the Authority must ensure that it complies
         with HUD rules and regulations and its own Federal procurement policies that
         require performing independent cost estimates for each procurement, soliciting
         bids or price quotes, maintaining documentation supporting the basis for contract
         awards, and executing written contracts for all procurements.

         Additionally, we recommend that the Director require the Authority to develop
         and implement a written policy to ensure the timely reinspection of units and the
         abatement of housing assistance payments to landlords. The Authority must
         repay the Housing Choice Voucher program $36,774 from non-Federal funds for
         ineligible housing assistance payments made to landlords for units that were not
         properly abated.



                                          2
           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the Authority a draft report on February 21, 2012, and held an exit
           conference with officials on February 24, 2012. The Authority provided written
           comments on March 9, 2012. The Authority agreed with finding 3, and partially
           agreed with findings 1 and 2. The complete text of the auditee’s response, along
           with our evaluation of that response, can be found in appendix B of this report.




                                            3
                           TABLE OF CONTENTS

Background and Objective                                                         5

Results of Audit
      Finding 1: The Authority Approved Rents Without Performing Adequate Rent   6
                 Reasonableness Determinations
      Finding 2: The Authority Failed To Follow Proper Procurement Procedures    9
      Finding 3: Housing Choice Voucher Program Units Were Not Always            14
                 Reinspected in a Timely Manner or Properly Abated

Scope and Methodology                                                            17

Internal Controls                                                                20

Appendixes
   A. Schedule of Questioned Costs                                               22
   B. Auditee Comments and OIG’s Evaluation                                      23/28
   C. Unsupported Procurement Costs                                              31




                                          4
                      BACKGROUND AND OBJECTIVE


The United States Housing Act of 1937 established the Federal framework for government-
owned affordable housing. The United States Congress established public housing to promote
the general welfare of the United States by assisting cities, such as Medford, MA, to provide
decent and safe dwellings for low-income families. The U.S. Department of Housing and Urban
Development (HUD) disperses funds to public housing agencies under annual contributions
contracts to provide funding for housing assistance for eligible, low-income families.

In addition, the Act was amended by the Quality Housing and Work Responsibility Act of 1998
to create the Section 8 Housing Choice Voucher tenant-based program. The program is funded
by HUD and allows public housing authorities to pay HUD subsidies directly to housing owners
on behalf of the assisted family.

The Medford Housing Authority was established in 1948. The Authority is an autonomous local
government subdivision which owns, manages, and maintains subsidized public housing
developments and subsidized leased housing programs within Medford, MA. It administers
Federal public housing, State public housing, the Federal Housing Choice Voucher program, and
the Massachusetts Rental Voucher Program. The Authority is overseen by a five-member board
of commissioners, including the executive director who is responsible for the Authority’s day-to-
day operations.

HUD and the Massachusetts Department of Housing and Community Development funded the
Authority a combined total of $17.4 million in fiscal years 2009 and 2010. The Authority
manages 481 Federal public housing units, 146 State public housing units, and 225 State public
housing units converted to Federal public housing units. In addition, it administers 987 housing
choice vouchers and 15 Massachusetts rental vouchers.

Our overall audit objective was to determine whether the Authority had acceptable management
practices to efficiently and effectively administer its housing programs while providing decent,
safe, and sanitary housing in compliance HUD requirements and its annual contributions
contract. The specific subobjectives of the audit were to determine whether (1) contract rents
were reasonable and based on rent reasonableness factors; (2) housing units complied with
housing quality standards; (3) the Authority followed HUD procurement regulations and its own
procurement policy; (4) credit card transactions were reasonable, eligible, and adequately
supported; (5) applicants on the public housing waiting list were appropriately housed in
accordance with regulations; and (6) controls over tenant fraud recoveries were adequate.




                                                5
                                        RESULTS OF AUDIT

Finding 1:              The Authority Approved Rents Without Performing
                        Adequate Rent Reasonableness Determinations
The Authority failed to properly ensure that rents paid for assisted units were reasonable in
relation to rents charged for comparable unassisted units. This condition occurred because the
Authority failed to complete a rent reasonableness study in accordance with HUD regulations
that require nine factors to be evaluated. Without a proper rent reasonableness study, the
Authority may have subsidized units at rents that were lower or higher than those considered
reasonable. As a result, $7.8 million in rental subsidies was not properly supported.




    Rent Reasonableness
    Determinations Did Not
    Evaluate All Nine Factors


                    The rent reasonableness determinations we reviewed showed that the Authority
                    evaluated two factors when it conducted an annual rent reasonableness
                    determination and unit housing quality inspections. The Authority used an online
                    service to compare the unit price with the rental prices in that unit’s zip code.
                    This service allowed its clients to enter a zip code, the number of bedrooms in the
                    dwelling, and the amount of rent, and it would compare the rental price with local
                    property listings from a related company’s database to determine whether a unit’s
                    rent was reasonable. Proper rent reasonableness determinations require the
                    evaluation of nine factors, but the online service used only two of the nine factors:
                    location and size of the unit. The online service did not comment on quality, unit
                    type, age of the contract unit, amenities, housing services, maintenance provided,
                    or utilities provided. Finally, the online service did not identify whether any of
                    the other properties in its report included assisted units as well as unassisted units.
                    HUD requires that a determination of rent reasonableness be based on the
                    evaluation of nine factors. These factors are (1) location, (2) quality, (3) size, (4)
                    unit type, (5) age of the contract unit, (6) amenities, (7) housing services, (8)
                    maintenance provided by the owners, and (9) utilities to be provided by the owner
                    in accordance with the lease.1 HUD also requires that in each case in which a
                    housing authority is required to determine rent reasonableness, the housing
                    authority document its decision and the basis for its decision in a tenant’s file.
                    For example, a tenant’s file must contain information on the unassisted units used
                    for comparison.2

1
    24 CFR (Code of Federal Regulations) 982.507, Rent to owner: Reasonable rent, (b) Comparability
2
     Housing Choice Voucher Program Guidebook 7420.10G, page 189

                                                          6
                    The Authority believed the online service saved time and was more efficient than
                    other methods for determining rent reasonableness. Before using the online
                    service, the Authority had compiled data from the local newspapers, but the
                    employees compiling the data said that it was difficult to find sufficient
                    comparable units using this method. Most of the Authority’s rented units were
                    small properties, the owners of which owned only one or two small rental
                    properties. The Authority noted that getting quality information about the rental
                    market was becoming more time consuming and more difficult, as many smaller
                    owners did not advertise their units. As a result, advertised rental prices were
                    available only for the larger conglomerate renters, and the Authority believed that
                    the large conglomerate renters charged higher rents. However, although the
                    Authority had difficulty in determining rent reasonableness, it did not consider
                    whether it needed to hire additional outside assistance for conducting rent
                    reasonableness determinations.

                    When we discussed the missing factors with the Authority in October 2011, it
                    acknowledged the online service’s shortcomings. However, it indicated that it
                    compensated for the shortcomings in the determinations. When we evaluated a
                    representative nonstatistical sample of rent reasonableness determinations, we did
                    not find evidence that the Authority complied with HUD regulations for rent
                    reasonableness. The nonstatistical sample examined rent reasonableness
                    determinations for 20 tenants for their period of tenancy, which overlapped our
                    audit period of October 1, 2009, to September 2011,3 but none contained
                    information regarding all nine factors. Without proper rent reasonableness
                    determinations, this subsidy was not properly supported. During the period July
                    2010 to September 2011, the Authority drew down more than $7.8 million in
                    subsidies for the Housing Choice Voucher program.



    Rent Reasonableness is an
    Evaluation Factor for SEMAP



                    HUD requires public housing authorities administering Housing Choice Voucher
                    programs to submit an annual Section 8 Management Assessment Program
                    (SEMAP) to HUD within 60 days after the end of its fiscal year. The information
                    from the authority concerns the performance of the authority and provides
                    assurance that there is no evidence of seriously deficient performance. HUD uses
                    the information and other data to assess the authority’s management capabilities
                    and deficiencies. One of the items assessed in the SEMAP is rent reasonableness,
                    and the Authority awarded itself the full 20 points. The Authority reported that it
                    had implemented a reasonable written method to determine and document for
                    each unit leased that the rent to owner was reasonable based on current rents for

3
    Our testing showed that the Authority used the online service from July 2010 to September 2011.

                                                          7
             comparable unassisted units. However, the Authority’s methodology did not take
             into consideration all nine factors of the Authority's process for rent
             reasonableness, and therefore, it did not deserve the full 20 point. As such, the
             2011 SEMAP submission needs to be rescored.



Conclusion


             The Authority failed to properly ensure that rents paid for assisted units were
             reasonable in relation to rents charged for comparable unassisted units. It
             approved rents without evaluating all nine factors required for rent reasonableness
             determinations. The online service used by the Authority was not efficient
             because it evaluated only two of the nine factors. Without a proper rent
             reasonableness determination, the Authority may have subsidized units at rents
             that were lower or higher than those considered reasonable. As a result, $7.8
             million in rental subsidies was not properly supported.


Recommendations



             We recommend that the Director of HUD’s Boston Office of Public Housing
             require the Authority to

             1A.    Develop written policies and procedures regarding rent reasonableness
                    studies.

             1B.    Reexamine the units that had determinations conducted between July 2010
                    and September 2011 and recoup any funds overpaid to landlords or repay
                    $7,876,534 from non-Federal funds to the housing assistance payment
                    reserve account if the determinations cannot be properly supported.

             1C.    Evaluate whether the Authority needs to hire additional outside assistance
                    to conduct an annual rent reasonableness determination study using all
                    nine factors in 24 CFR 982.507.

             1D.    Re-score the 2011 Section 8 Management Assessment Program
                    submission to correct points for indicator 2 reasonable rent.




                                              8
                                    RESULTS OF AUDIT

Finding 2:            The Authority Failed To Follow Proper Procurement
                      Procedures
The Authority did not always follow the required procurement practices and procedures. The
deficiencies included (1) failure to perform independent cost estimates before soliciting bids or
proposals, (2) selecting contractors without soliciting competition, (3) failure to follow HUD
procedures for procurements under cooperative and interagency agreements, (4) contract not
properly readvertised to reflect change in scope of work , (5) awarding contracts by noncompetitive
proposal without justification, (6) HUD regulations for competitive proposals not followed , and (7)
paying for services or work performed without a contract. In addition, the Authority failed to
maintain a complete contract register. These conditions occurred because the Authority did not
implement effective management controls over the procurement process. As a result, it could not
assure HUD that its procurement process was fair and equitable and that it obtained the most
favorable prices for items purchased totaling more than $1.3 million that was charged to Federal
programs.



    A Majority of Procurements
    Reviewed Had Deficiencies


                  We reviewed 26 of the Authority’s procurements or contracts relating to
                  construction and services. For 21 of the 26, we identified at least 1 violation of
                  HUD regulations or the Authority’s procurement policy. (see appendix C).

    Independent Cost Estimates
    Were Not Performed

                  For six procurement actions, the Authority did not perform independent cost
                  estimates. An independent cost estimate prepared before receipt of bids or
                  proposals ensures that the costs are reasonable. HUD regulations require that a
                  cost or price analysis be performed in connection with every procurement action
                  before bids or proposals are received.4 The Authority’s policy dictates that an
                  independent cost estimate be prepared in advance of each solicitation or contract
                  modification.




4
    24 CFR 85.36(f)

                                                     9
    Contractors Were Selected
    Without Competition

                The Authority could not furnish documentation to substantiate that it solicited
                price or rate quotations from an adequate number of sources when procuring
                services. For ten procurements, the Authority did not provide sufficient
                documentation to show that price or rate quotations were obtained. The executive
                director stated that since certain contractors or vendors were hired before his
                arrival at the Authority, he believed that he should not be held accountable for
                these infractions. However, a housing authority must conduct all procurement in
                a manner to provide full and open competition and maintain records to show the
                history of procurement.5 Also, a housing authority must solicit price quotations
                from several companies to achieve the lowest reasonable cost.6 The Authority’s
                procurement policy requires soliciting price quotations to not only achieve the
                lowest reasonable cost, but also provide increased fair access to the economic
                opportunities created through its procurement process.

    HUD’s Procurement Policy
    Regarding Use of Interagency
    Agreements Was Not Followed

                The Authority did not follow HUD policy for procurements via interagency
                agreements. To foster greater economy and efficiency, housing authorities are
                encouraged to enter into State and local intergovernmental agreements for
                procurement or use of common goods and services. Use of intergovernmental
                agreements can often greatly simplify and expedite the procurement process by
                relieving the authority of developing specifications or issuing solicitations.
                Before using an interagency agreement for procurement, the authority should
                compare the cost and availability of the identified supplies or services on the open
                market with the cost of purchasing them through another unit of the government
                to determine whether it is the most economical and efficient method. An
                authority’s procurement files should contain a copy of the intergovernmental
                agreement and documentation showing that cost and availability were evaluated
                before the agreement was executed.7 The Authority had hired a pest control
                company and an elevator service company by using such a method
                (Commonwealth of Massachusetts Procurement and Solicitation System).
                However, the Authority’s procurement files did not contain evidence of an
                intergovernmental agreement and documentation showing that cost and
                availability were evaluated before the agreement was executed.



5
  24 CFR 85.36(c)(1) and (b)(9)
6
  HUD Handbook 7460.8, paragraph 5-3(A)
7
  HUD Handbook 7460.8, sections 14-1 and 14-2

                                                 10
    Contract Should Have Been
    Readvertised to Reflect Change
    in Scope of Work




                   The Authority did not follow proper procedures when it awarded a contract for
                   construction work at its Tempone Manor project. It invited sealed bids from
                   contractors for the replacement of common area windows and doors at an
                   estimated cost of $95,000. Nine companies inspected the project and reviewed
                   contract documents. Only two companies submitted bid proposals for the specific
                   work sited in the advertisement; one bid was for $92, 979, and the other was for
                   $185,000. The Authority awarded the contract to the lowest bidder, but it was not
                   known why a company would submit a bid for almost twice the estimated cost
                   ($92,000 compared to $185,000). Based on a review of the contract and the
                   “application for certificate of payment,” the work entailed replacement of
                   windows only with no evidence that replacement of doors was included in the
                   work. The Authority reported that the cost of the work was $62,592, but only
                   $46,900 of this amount was supported. Since the work excluded replacement of
                   common area doors, the Authority should not have awarded this contract before
                   the procurement was readvertised to reflect the change in the scope of work.

    A Noncompetitive Contract
    Was Not Justified

                   The Authority did not maintain records that would justify awarding a contract by
                   noncompetitive proposal for the installation of a solar thermal domestic hot water
                   system at the Authority’s Saltonstall Building. In addition, the Authority failed to
                   perform a cost analysis. The first time the Authority advertised the contract, there
                   were no bidders, and the second time only one bid was received. The Authority
                   also claimed that it had a short window of opportunity and wanted to take
                   advantage of a $150,000 grant and rebates from the utility company. HUD’s
                   procurement regulations provide that if after solicitation of a number of sources,
                   competition is determined inadequate, the award of a contract must not be made
                   unless there is written justification as to the necessity of using the noncompetitive
                   proposal method and a cost analysis is performed to verify the reasonableness of
                   the price.8 However, the Authority did not maintain written justification and did
                   not perform a cost analysis.




8
    HUD Handbook 7460.8, sections 8.4 and 8.5

                                                    11
     HUD Regulations for
     Competitive Proposals Not
     Followed



                   The Authority failed to follow HUD procurement regulations for competitive
                   procurements. It did not prepare the appropriate requests for proposals and
                   document the method for conducting technical evaluations for architects hired as
                   required by HUD regulations. We reviewed three of the architectural and
                   engineering firms associated with three of the construction projects included in
                   our review. Only one of the procurements (bathroom modifications) had a
                   request for proposals; however, this request for proposals did not document
                   evaluation factors and their importance. In addition, the Authority had not
                   established a method for conducting technical evaluations of the proposals
                   received. HUD regulations dictate that when a procurement is made by
                   competitive proposal, the following requirements apply: (i) Requests for
                   proposals will be publicized and identify all evaluation factors and their
                   importance; (ii) Proposals will be solicited from an adequate number of qualified
                   sources; (iii) A method must exist for conducting technical evaluations of the
                   proposals received and for selecting awardees. 9 Authority staff was unfamiliar
                   with HUD regulations regarding competitive procurements.

     Services Were Paid For
     Without Contracts

                   We found ten occurrences in which the Authority paid for services and work
                   performed without a contract. Without a contract in place, there is no basis for
                   determining whether services provided are in accordance with contract terms or
                   that amounts billed are reasonable. Not having a contract in place put the
                   Authority at risk for overbilling and inadequate service. HUD requires authorities
                   to maintain source documents and files that support the financial transactions
                   recorded in the books of account and that provide an adequate audit trail. These
                   documents include such items as contracts.10 The Authority’s procurement policy
                   requires contracts to be in writing, clearly specifying the desired supplies,
                   services, or construction.


     Contract Register Was
     Incomplete

                   The Authority’s contract register was incomplete. It did not maintain a complete
                   contract register for all service related and construction companies operating at
                   the Authority. HUD requires that housing authorities maintain a contract system,

9
    24 CFR 85.36(d)(3)
10
     Public and Indian Housing Low-Rent Technical Accounting Guide, paragraph II(8)

                                                        12
                   which ensures that contractors perform in accordance with the terms, conditions,
                   and specifications of their contracts or purchase orders.11

     Conclusion

                   The Authority did not establish and implement effective management controls
                   over the procurement process for procurements totaling more than $1.3 million
                   charged to the HUD program. As a result, it could provide only limited assurance
                   that its procurement process was fair and equitable and it obtained the most
                   favorable prices or the best quality of services for the items purchased. A housing
                   authority must solicit price quotations from several entities or companies, not only
                   to achieve a reasonable cost, but also to provide increased fair access to the
                   economic opportunities created through an open procurement. A written contract
                   not only serves to support the agreed-upon cost, but also defines services expected
                   and describes the responsibilities of each party.



     Recommendations

                   We recommend that the Director of HUD’s Boston Office of Public Housing
                   require the Authority to

                   2A.    Conduct an independent cost analysis for each of the procurements to
                          ensure that $1,366,147 charged to Federal programs was reasonable and
                          supported. For any amounts not reasonable and supported, HUD should
                          require the Authority to reimburse the HUD programs from non-Federal
                          funds.

                   2B.    Implement controls over the procurement process that require performing
                          independent cost estimates for each procurement, soliciting bids or price
                          quotes, and maintaining documentation supporting the basis for contract
                          awards.

                   2C.    Execute written contracts for all procurements and maintain a contract
                          register for the related contracts.




11
     24 CFR 85.36(b)(2)

                                                    13
                                 RESULTS OF AUDIT

Finding 3: Housing Choice Voucher Program Units Were Not Always
           Reinspected in a Timely Manner or Properly Abated
The Authority did not always ensure that reinspections of its Housing Choice Voucher program
units were performed in a timely manner or properly abate housing assistance payments . This
condition occurred because the Authority did not have procedures or an adequate written policy
regarding the timely reinspection of units or a policy for abating units, as required. As a result,
landlords were paid $36,774 in housing assistance for 31 units reviewed that did not meet HUD’s
housing quality standards.
.




    Reinspections Were Not
    Performed in a Timely Manner


               The Authority did not always perform timely reinspections of Housing Choice
               Voucher program units. We selected 62 reinspections to review and found that 32
               (52 percent) were not performed in a timely manner. These reinspections were
               performed an average of 48 days late, and the range was from 9 to as many as 245
               days late.

               In one instance, a unit that was inspected on November 30, 2009, did not pass
               reinspection until July 6, 2010. In another instance, a unit that was inspected on
               February 18, 2010, did not pass reinspection until June 9, 2010. Further, a unit that
               was inspected on May 24, 2010, did not pass reinspection until September 9, 2010.
               Some of the violations identified in the inspection reports included mouse activity
               from a hole in the kitchen ceiling, an inoperable carbon monoxide detector, rats in
               the basement, and a blocked exit in an apartment. If the Authority had a written
               enforceable policy regarding timely inspections, this occurrence might have been
               avoided.


    Rents Were Not Abated When
    Required


               The Authority should have abated units, considering the length of time it took to
               correct deficiencies. HUD requires that all life-threatening deficiencies be corrected
               within 24 hours of inspection and all other cited deficiencies be corrected no more
               than 30 calendar days from the date of the inspection unless the Authority has
               extended the time for compliance. The Authority must abate housing assistance
                                                 14
                   payments when the owner does not comply with a notification of deficiency.
                   Owners are not entitled to housing assistance payments from the first of the month
                   following the violation notice until the day the unit passes inspection.12

                   The Authority should have abated 31 units with uncorrected violations and not paid
                   $36,774 in housing assistance to landlords whose units did not met HUD’s housing
                   quality standards. Authority officials acknowledged that they did not have an
                   abatement policy. The Authority’s practice was to hold checks for the housing
                   assistance payments to landlords if a unit did not pass inspection. Once the unit
                   passed inspection, the Authority would release all checks held and continue making
                   monthly housing assistance payments. An Authority official stated that checks
                   could be held for as long as 6 months before the contract with the landlord was
                   terminated. The Authority acknowledged that this practice did not comply with
                   HUD rules and regulations.



     Enforcement of Housing
     Quality Standards is a SEMAP
     Indicator

                   HUD requires public housing authorities administering Housing Choice Voucher
                   programs to submit an annual Section 8 Management Assessment Program
                   (SEMAP) to HUD within 60 days after the end of its fiscal year. The information
                   from the authority concerns the performance of the authority and provides assurance
                   that there is no evidence of seriously deficient performance. HUD uses the
                   information and other data to assess the authority’s management capabilities and
                   deficiencies. One of the items assessed in the SEMAP is the enforcement of
                   Housing Quality Standards. The Authority filed its 2011 SEMAP and claimed the
                   maximum points for indicator 6 (housing quality standards enforcement). The
                   Authority should develop and implement policies and procedures to abate landlord
                   housing assistance payments for units that do not meet HUD Housing Quality
                   Standards. The Authority should be required to rescore its 2011 SEMAP
                   submission for housing quality standards enforcement.


     Conclusion


                   The Authority did not perform timely reinspections of Housing Choice Voucher
                   program units that failed annual housing quality standards inspections. It did not
                   reinspect 32 of the 62 units inspected (52 percent) in a timely manner. In
                   addition, the Authority did not properly abate units that did not meet HUD’s
                   housing quality standards. As a result, landlords were paid $36,774 in housing
                   assistance for 31 units that did not meet HUD’s housing quality standards. Also,
12
     HUD Guidebook 7420.10G, sections 10.6 and 10.7

                                                      15
          the Authority needs to rescore its 2011 SEMAP submission to correct points for
          indicator 6, housing quality standards enforcement..


Recommendations

          We recommend that the Director of HUD’s Boston Office of Public Housing
          require the Authority to

          3A. Develop and implement a written policy to ensure timely reinspection of
              units.

          3B. Develop and implement a written policy for the abatement of housing
              assistance payments to landlords.

          3C. Repay the Housing Choice Voucher program $36,774 from non-Federal
              funds for ineligible housing assistance payments made to landlords for units
              that were not abated.

          3D. Rescore the 2011 SEMAP submission to correct points for indicator 6,
              housing quality standards enforcement.




                                          16
                        SCOPE AND METHODOLOGY

We performed the audit at the Authority from July 30 to December 31, 2011. Our fieldwork was
completed at the Authority’s main office located at 121 Riverside Avenue, Medford, MA. The
audit generally covered the period October 1, 2008, to September 30, 2010, and was extended
when necessary to meet our objective. To accomplish our audit objective, we

      Reviewed applicable laws, regulations, HUD handbooks and guidebooks, HUD public
       housing notices, annual contributions contracts, the Authority’s administrative plan, and the
       Authority’s policies and procedures.

      Conducted discussions with Authority officials to gain an understanding of the Authority’s
       financial structure, cost allocation, accounting controls, procurement practices, and tenant
       occupancy.

      Reviewed independent public auditors’ reports as part of our testing for control
       weaknesses and reviewed media articles related to the Authority and its staff.

      Evaluated the most current HUD SEMAP reports to identify potential issues or concerns.
       We also reviewed the financial data sheet filed with the Real Estate Assessment Center to
       determine the Authority’s financial condition.

      Evaluated internal controls and conducted sufficient tests to determine whether the
       controls functioned as intended and reviewed computer controls to identify potential
       weakness related to our objectives.

      Reviewed records of Authority board minutes and noted information relevant to the
       housing programs.

      Reviewed organization and staffing to determine whether such organization and staffing
       promoted efficiency, economy, and effectiveness in the administration of the Authority’s
       programs.

      Evaluated the Authority’s allocation plan in conjunction with written job descriptions and
       its organizational chart to determine whether allocation of costs between HUD and State
       programs were reasonable.

      Determined whether the Authority complied with HUD rules and regulations related to
       rent reasonableness for the Housing Choice Voucher program. We selected a
       representative, nonstatistical sample of 20 families for review and determined whether
       contract rents charged to Section 8 tenants exceeded rents charged for comparable
       unassisted units in the same project. The 20 families were selected from a universe of 994
       tenant families covering the period December 1, 2008, through September 30, 2010.



                                                17
      Evaluated the Authority’s procurement practices by selecting for review the specific
       service- and construction-related companies or types of businesses (for example, laundry
       and clothing or uniform services) in which we were informed that procurement
       deficiencies might exist. We focused on the contracts identified in the complaint. We
       reviewed a total of 26 procurements, 12 of which were construction (included
       architecture and engineering firms) related and the other 14 of which were service-related
       contracts. For those procurements, we reviewed written agreements, bids or quotes
       solicited, and change orders.

      Selected a sample of 20 unit inspections to determine whether the units were reinspected
       in a timely manner and properly abated. We chose to limit our inspections to those
       annual inspections that failed in 2010 and 2011. Using the Excel random function, we
       selected the 20 inspections from a universe of 465 failed inspections. If applicable, we
       calculated the ineligible housing assistance payments.

      Determined whether the Authority obligated the Public Housing Capital Fund grant funds
       it received under the American Recovery and Reinvestment Act for eligible projects,
       whether it had adequate management controls governing the expense and obligation
       process, and whether it followed proper procurement procedures in accordance with
       HUD regulations.

We reviewed potential concerns brought to HUD’s attention in a written complaint. Based on
OIG’s review some of these concerns did not actually result in findings. For example, we

      Reviewed the Authority’s practices for handling inventory of nonexpendable equipment
       to determine whether the Authority managed and controlled its inventory effectively and
       efficiently. We determined that the Authority maintained proper control over inventory
       of nonexpendable equipment.

      Obtained waiting lists for family and elderly applicants, showing all new applicants from
       October 1, 2008, to September 30, 2011, and listings of names of applicants housed in
       family and elderly public housing units covering the same timeframe. We compared
       application dates shown in the waiting lists to the listings of individuals housed for
       inconsistencies. We followed up on instances in which it appeared that recent applicants
       may have been unfairly housed ahead of applicants who applied for housing much earlier.
       We reviewed applicant files as deemed necessary. We did not find any concerns
       regarding the public housing waiting list.

      Reviewed all credit card charges, including travel, for the period October 1 2008, to
       September 30, 2011, for assurance that charges were reasonable, eligible, and adequately
       supported. Federal funds were not used to pay credit card charges; therefore, we have no
       authority to review the use of these funds.

      Evaluated the policies and procedures implemented for tenant fraud recoveries. We did
       not find any concerns with controls over the tenant fraud recovery process.


                                               18
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               19
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.




 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls over rent reasonableness including the existence of rent
                      reasonableness determinations, whether the determinations address all
                      nine factors, and whether results are adequately supported.
                     Controls over procurement including the existence of a contract, the proper
                      solicitation of bid proposals, and the use of full and open competition.
                     Controls over inspections in accordance with housing quality standards
                      including the existence of inspections and reinspectons, abatements when
                      inspections show that a unit fails to meet housing quality standards, and
                      consistency in the application of abatements.
                     Controls over the use of credit cards issued to five Authority employees
                      and the Authority’s policy regarding eligible travel costs.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


                                                 20
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                   Rent reasonableness determinations did not address all nine factors, and
                    results of the rent reasonableness studies were not adequately supported.
                    (Finding 1)
                   The Authority did not have contracts or written agreements between
                    parties for all its procurement activities. (Finding 2)
                   The Authority did not have independent cost estimates or technical
                    evaluations for all of its procurements. (Finding 2)
                   The Authority did not award all procurement transactions under full and
                    open competition. (Finding 2)
                   The Authority did not always ensure that reinspections of its Housing
                    Choice Voucher program units were performed in a timely manner and
                    properly abate housing assistance payments when repairs were not
                    completed. (Finding 3)




                                              21
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                Recommendation         Ineligible 1/         Unsupported 2/
                    number
                        1B                                     $7,876,534
                        2B                                     $1,366,147
                        3C               $36,774
                                         $36,774              $9,242,681


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             22
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1


Comment 2

Comment 3




                         23
Ref to OIG Evaluation   Auditee Comments




Comment 4


Comment 5



Comment 4


Comment 4




Comment 6

Comment 7




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 8

Comment 9

Comment 10




Comment 11

Comment 11




                         25
Ref to OIG Evaluation   Auditee Comments




                         26
Ref to OIG Evaluation   Auditee Comments




                         27
                         OIG Evaluation of Auditee Comments

Comment 1   We do not concur with the Authority’s claim that the on-line service it uses to
            determine rent reasonableness is efficient. This on-line service is not in
            compliance with HUD requirements. HUD requires that a determination of rent
            reasonableness be based on the evaluation of nine factors. These factors are (1)
            location, (2) quality, (3) size, (4) unit type, (5) age of the contract unit, (6)
            amenities, (7) housing services, (8) maintenance provided by the owners, and (9)
            utilities to be provided by the owner in accordance with the lease. As we noted in
            the report, the online service used only two of the nine factors: location and size
            of the unit. The online service did not comment on quality, unit type, age of the
            contract unit, amenities, housing services, maintenance provided, or utilities
            provided.

Comment 2   The Authority stated that another source it used to determine rent reasonable,
            namely page 2 of its inspection form, includes the 9 factors for rent
            reasonableness, a majority of the time. Based on OIG's review of 20 files, we
            found that page 2 of the inspection form was either left blank or was missing from
            the file entirely. In addition, the inspection form did not contain information on
            the unassisted units used for comparison. This is contrary to HUD regulations that
            state the tenant files must contain information on the unassisted units used for
            comparison. HUD requires the person conducting rent reasonableness to provide
            sufficient information about the evaluation process so that a supervisor or auditor
            can understand how the comparables were used to determine the appropriate rent
            for the program units. OIG concluded that sufficient information about the
            evaluation process was not provided by the Authority.

Comment 3   Because the Authority failed to properly ensure that rents paid for assisted units
            were reasonable in relation to rents charged for comparable unassisted units, OIG
            determined that $7,876,534 million in rental subsidies was not properly
            supported. We recommended (1B) that the Authority reexamine the units that had
            determinations conducted between July 2010 and September 2011 and recoup any
            funds overpaid to landlords or repay $7,876,534 from non-Federal funds to the
            housing assistance payment reserve account if the determinations cannot be
            properly supported. The Authority proposed an alternative to provide assurances
            that the rents were reasonable, specifically they recommended re-examing a
            sample of units to assure the rents it used were in fact reasonable. HUD will need
            to evaluate the Authority’s recommendation that it re-exam a sample of units.

Comment 4   The Authority did not provide any of the independent cost estimates requested by
            OIG. OIG had requested independent cost estimates for the work performed by
            Mill City Landscaping, Linwood Construction, Prism Builders, Inc., Advantage
            Glass, Bay State Contractors, and C J Doherty, but the Authority failed to provide
            the documentation. The Authority’s implication that it did not prepare
            independent cost estimates for all procurements violates its own procurement



                                            28
            policy which dictates that an independent cost estimate be prepared in advance of
            each solicitation or contract modification.

Comment 5   The Authority admitted that it did not prepare contracts on several jobs, but it did
            have purchase orders which it considered to be as valid as a contract. A contract
            not only serves to support the agreed upon cost, but also defines services expected
            and describes the responsibilities of each party. A detailed discussion of the
            services expected or a description of the responsibilities of each party missing
            from a purchase order reduces its effectiveness in obtaining the needed
            services/products.

Comment 6   The Authority awarded the architectural and engineering contract (A/E) for the
            installation of the solar hot water system at the Saltonstall building to R W
            Sullivan Engineering because they were the A/E for the prior gas conversion at
            the project and because RW Sullivan was the most familiar with solar systems.
            These factors did not justify awarding the contract to RW Sullivan. HUD
            regulations dictate that when a procurement is made by competitive proposal, the
            following requirements apply: (i) Requests for proposals will be publicized and
            identify all evaluation factors and their importance; (ii) Proposals will be solicited
            from an adequate number of qualified sources; (iii) A method must exist for
            conducting technical evaluations of the proposals received and for selecting
            awardees.

Comment 7   The contract for the installation of a solar hot water system at the Saltonstall
            Building was improperly awarded by noncompetitive proposal. Although no one
            bid on the first RFP and Bay State Contractors was the only bidder on the second
            RFP, HUD’s procurement regulations provide that if after solicitation of a
            number of sources, competition is determined inadequate, the award of a contract
            must not be made unless there is written justification as to the necessity of using
            the noncompetitive proposal method and a cost analysis is performed to verify the
            reasonableness of the price. As we stated in the report, the Authority did not
            maintain written justification and did not perform a cost analysis.

Comment 8   Our review disclosed that the procurement of Straight Up Builders violated
            procurement regulations because the vendor was acquired without solicitation and
            there was no evidence of contract. The Executive Director stated that it stopped
            using Straight Up Builders once he realized the Authority was paying too much
            money for the services. However, the Authority continued paying Straight Up
            Builders until June 30, 2011, which is well past the date (June 1, 2009) the
            Executive Director was hired.

Comment 9   The Authority provided documentation to substantiate that it solicited price quotes
            from three sources before selecting Mystic Paving to repair catch basins at its
            Saltonstall Building (see attached document, pages 26 & 27). The documentation
            only shows the name of the vendor and the amount of the quote. We contend that
            this documentation is insufficient because there is no evidence of the dates of the

                                              29
              quotations, the names of the persons submitting the quotations, or the addresses of
              the vendors.

Comment 10 The Authority states that it did not solicit competition for several smaller jobs
           performed by CJ Doherty. This practice violates HUD regulations which dictate
           that a housing authority must solicit price quotations from several companies to
           achieve the lowest reasonable cost. This practice also violates the Authority’s
           own procurement policy that requires soliciting price quotations to not only
           achieve the lowest reasonable cost, but also to provide increased fair access to the
           economic opportunities created through its procurement process.

Comment 11 The Authority claimed that it had an inter-agency agreement with the
           Massachusetts Department of Housing and Community Development to use any
           vendor on the official state approved bid list. HUD states that an authority’s
           procurement files should contain a copy of the intergovernmental agreement and
           before using an interagency agreement for procurement, the authority should
           compare the cost and availability of the identified supplies or services on the open
           market with the cost of purchasing them through another unit of the government
           to determine whether it is the most economical and efficient method.
           Our review showed that the Authority’s procurement files did not contain
           evidence of an intergovernmental agreement or documentation showing that cost
           and availability were evaluated before the agreement was executed.




                                              30
 Appendix C

                        UNSUPPORTED PROCUREMENT COSTS

                                                                                                               Deficienci
 Company or vendor                             Description of work                        Questioned costs13
                                                                                                                   es
Mill City Landscaping                 Paving and site work at Weldon Manor                                $0       1
Lindwood Construction              Bathroom modifications a Tempone Manor                                  0       1
  Prism Builders, Inc.     Update elevators at Tempone Manor & Saltonstall Building                        0       1
   Advantage Glass          Replacement of common area widows at Tempone Manor                        46,900      1,4
                               Installation of Solar Thermal Hot Water System at
Bay State Contractors                                                                                294,860      1,5
                                                Saltonstall Building
      Mystic Paving               Repair catch basins at the Saltonstall Building                      2,750       2
                           Replace hydrants, pave driveways, repair sidewalks at the
      C.J. Doherty                                                                                    28,750     1,2,7
                                    Saltonstall Building & Tempone Manor
 Straight Up Builders                          Work at various sites                                 342,549      2,7
 Capital Construction                          Work at various sites                                  59,400      2,7
 CBI Consulting, Inc.       Architect for bathroom modifications at Tempone Manor                     28,852       6
    R.W. Sullivan          Architect for solar thermal hot water system at Salstonstall
                                                                                                      10,594      6,7
     Engineering                                     Building
                            Architect for replacement of common area windows at
          Farley                                                                                       6,468      6,7
                                                 Tempone Manor
       Gail Nueber          Consultant wrote grant applications for Authority programs                15,188      2,7
   PHI Inspections                        Perform Section 8 inspections                               30,612       2
   Peerless Premier
                                         Acquisition of 338 electric stoves                                        7
      Appliance                                                                                      115,195
Casella Waste Services                           Trash removal                                        51,440      2,7
  A-1 Exterminators                            Pest control services                                 204,126       3
North Atlantic Frame &
                                            Service Authority vehicles                                32,845      2,7
      Appliance
    Eagle Elevator                       General elevator maintenance                                 74,540       3
 John Paul Johnson Jr.               Work on Authority storage and file areas                         16,723      2,7
 DeCrescenzo Design                  Provided spring and winter decorations                            4,355       2
                                                                                                  $1,366,147

                      Deficiency Explanations:

                          1. Failure to perform independent cost estimates before soliciting bids or
                             proposals
                          2. Selected contractors without soliciting competition
                          3. HUD procurement policy for use of interagency agreements not followed
                          4. Contract not properly readvertised to reflect change in scope of work
                          5. Noncompetitive contract not justified
                          6. HUD regulations for competitive proposals not followed
                          7. Paying for services or work performed without a contract



 13
      No questioned costs for several construction contracts that were bid properly

                                                             31
